                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-39                                    Office of Inspections                                September 2013




                 Inspection of the
      Bureau of East Asian and Pacific Affairs




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                                 Table of Contents
Key Judgments                                                   1
Context                                                         3
Executive Direction                                             4
  Front Office Structure                                        4
  Resourcing Rebalance                                          7
  Strategic Planning                                            8
  Public Diplomacy                                              9
  Talent Management                                            10
Policy and Program Implementation                              12
  Strengthening Regional Institutions and Integration          12
  Advancing Economic Prosperity                                14
  Strengthening and Modernizing U.S. Alliances                 15
  Deepening Partnerships with Emerging Powers                  16
  Pursuing a Stable and Constructive Relationship with China   17
  Unleashing Creativity Through Greater Efficiency             18
Resource Management                                            20
  Management Initiatives                                       21
  Human Resources                                              21
  Assignments                                                  22
  Financial Management                                         22
  General Services                                             23
  Post Management                                              24
  Security                                                     24
  Information Management                                       25
Management Controls                                            29
  Property Management                                          29
  Purchase Card Program                                        29
List of Recommendations                                        30
List of Informal Recommendations                               32
Principal Officials                                            34
Abbreviations                                                  35
Appendix: Bureau of East Asian and Pacific Affairs             36
Office Structure                                               36




                                      iii
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   The Bureau of East Asian and Pacific Affairs is well led and high-functioning. It has
    spearheaded a broad, innovative, and well-received intensification of U.S. engagement in the
    Asia-Pacific region. Its policy priorities are ambitious, relevant, clear, and generally well
    understood by its staff and missions.

•   The bureau has six deputy assistant secretaries, twice as many as in 2004, and a deputy
    assistant secretary-level U.S. senior official for Asia-Pacific Economic Cooperation. The
    bureau needs to streamline front office staffing. The Special Representative and Policy
    Coordinator for Burma position is no longer necessary as it duplicates the efforts of Embassy
    Rangoon and a strengthened Burma desk.

•   Working-level staffing has not increased to match workloads; more than 20 percent of staff is
    nonpermanent. The Bureau of East Asian and Pacific Affairs needs to better articulate its
    staffing needs and the Department of State needs to meet them. Despite frustration over long
    hours, morale is high. Innovative technology and better management of administrative
    support staff could increase efficiency.

•   The Bureau of East Asian and Pacific Affairs/U.S. Agency for International Development
    Joint Regional Strategy provides a good roadmap that the bureau should supplement with a
    public diplomacy strategy, action plans, working group meetings to review progress, and
    increased staffing for strategic planning and evaluation.

•   The Bureau of East Asian and Pacific Affairs is not well structured to support its key policy
    goals of strengthening regional institutions and advancing economic engagement and trade.
    The bureau should adjust its organizational structure to match its priorities.

•   The Bureau of East Asian and Pacific Affairs has strengthened and modernized U.S.
    alliances through increased strategic dialogues and engagements with treaty allies, China,
    and other partners. The Lower Mekong Initiative has deepened partnerships; the bureau
    needs to take steps to sustain its initial progress.

•   The leadership of the Bureau of East Asian and Pacific Affairs is seeking to address the
    underrepresentation of women and minorities in leadership positions and the challenge of
    providing career opportunities for Civil Service employees. The principal deputy assistant
    secretary should oversee recruitment and career development.

•   Department of State managers praise the Bureau of East Asian and Pacific Affairs Executive
    Office for its innovative approaches to management challenges. Bureau staff gives most of
    the Executive Office’s service units good marks.

•   The Bureau of Diplomatic Security and the Bureau of East Asian and Pacific Affairs lack an
    effective security program for the Bureau of East Asian and Pacific Affairs.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
                                        1
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

on areas where the Office of Inspector General (OIG) team did not identify problems that need to
be corrected.
                                                                                  [Redacted] (b) (6)
The inspection took place in Washington, DC, between April 8 and May 31, 2013.




                                       2
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Context
        If the 21st century will be the Pacific century, the Bureau of East Asian and Pacific
Affairs (EAP), the oldest of the Department of State’s (Department) six regional bureaus, will be
responsible for shaping America’s place in it. EAP’s areas of responsibility include China and
Japan—the world’s second and third largest economies—as well as the dynamic economies of
South Korea and Southeast Asia. Many countries in the region have made or are embracing the
transition from authoritarian rule to inclusive democracy; others remain authoritarian. The
United States has been engaged with Asia from the nation’s earliest days. Since the Second
World War, the United States has been the Asia-Pacific region’s predominant power, playing an
important role on security, political, and economic issues in the area. EAP’s responsibilities
encompass five treaty allies (Australia, Japan, Korea, the Philippines, and Thailand), the United
States evolving relationship with China, and management of a variety of regional security
challenges. EAP’s region also includes some of the world’s smallest and most vulnerable
countries, where poverty remains widespread—Papua New Guinea, Burma, Laos, Cambodia,
and island nations across the Pacific.

        The Obama administration’s highly publicized pivot or rebalance toward Asia, the
region’s economic dynamism, and China’s dramatic emergence have all increased the intensity
of U.S. policymakers’ focus on the region. The United States helped found the Asia-Pacific
Economic Cooperation (APEC) forum. The administration has increased America’s engagement
in Asia’s regional institutions, joining the East Asia Summit forum and the Trans-Pacific
Partnership trade talks. It also established a permanent mission and appointed the first-ever
dedicated U.S. Ambassador to the Association of Southeast Asian Nations (ASEAN), the area’s
oldest regional organization, signed ASEAN’s Treaty of Amity and Cooperation, and markedly
increased senior U.S. involvement in the ASEAN Regional Forum and related entities. EAP has
also launched new policy dialogues and engagements, some bilateral, others plurilateral.

         The administration’s rebalance toward Asia has not been matched by additional financial
or human resources. A Congressional Research Service memorandum notes that “[new]
initiatives have not, however, been accompanied by a significant increase in the State
Department or USAID’s programmatic resources devoted to East Asia.” Foreign assistance to
the region in FY 2013 is 19 percent below the FY 2010 peak. U.S. military resources for the
region have increased, but sequestration may impact future plans. The administration’s proposed
FY 2014 budget seeks increased diplomatic and development resources for the region. Among
the Department’s six regional bureaus, EAP ranks third (overseas Department staffing), fourth
(number of embassies and posts), and fifth (domestic staffing and overseas program funding).

        EAP had no confirmed assistant secretary at the time of the inspection. The principal
deputy assistant secretary (DAS) was in an acting capacity. The President nominated a new
assistant secretary midway through the inspection, but the confirmation process was still
underway when the inspection was completed.




                                        3
                           SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Executive Direction
        EAP is a well-led, well-managed bureau that has a motivated and talented staff. EAP is
deservedly well regarded in and out of the Department for its regional expertise and hard work.
EAP staff gives front office leadership positive reviews that compare favorably with other
bureaus’ front offices. Morale in EAP’s geographic and functional offices is high [Redacted] (b) (5)
                                         employees give office leadership high marks in surveys.
One office scored significantly below the bureau average and the OIG team counseled both
office management and the front office on corrective action.

        Over the last 4 years, EAP’s front office leadership team helped drive a significant
intensification in U.S. foreign policy engagement with the Asia-Pacific region. EAP has done
much to bring its activities in line with this change in focus, first called a pivot and subsequently
a rebalance. The Obama administration’s top priorities, as laid out in the White House Fact Sheet
for the President’s FY 2014 Budget and Asia, are:

       •   advancing economic prosperity and strengthening regional institutions and integration;
       •   strengthening and modernizing U.S. alliances;
       •   deepening partnerships with emerging powers; and
       •   pursuing a stable and constructive relationship with China.

       This strategic shift is a marked change from the 2004 inspection, 1 which faulted EAP for
dealing with each of its “accounts” bilaterally, rather than regionally. The focus of this report is
how to make a strong bureau even stronger by additional changes in its structure, strategic
planning, and resource allocation to better address its new policy priorities.

Front Office Structure

         The number of senior personnel in the EAP front office has grown since the 2004
inspection, creating a top-heavy structure for the second smallest regional bureau (by domestic
staff) in the Department, particularly one that has serious working-level staffing shortages. EAP
now has seven DAS-level positions: the number of DASes has doubled from three to six and
there is still a DAS-level APEC senior official. EAP did not seek all the new front office
positions. A public diplomacy (PD) DAS was added as part of a Departmentwide initiative to
have a PD DAS in all geographic bureaus. In addition, Congress mandated a new Special
Representative and Policy Coordinator for Burma in 2008. EAP provides administrative and
substantive support to three ambassadorial-rank special envoys for North Korea, but they report
to the Secretary, not the EAP assistant secretary.

        As in other bureaus, the proliferation of DASes has diminished the role of office directors
and reduced responsibility at every level. One DAS supervises a single geographic office, while
the APEC senior official supervises a single functional office. Each of these portfolios is active
but not so active that they require a dedicated DAS, office director, and deputy director.
Reducing the number of DASes would free up positions needed elsewhere in the bureau and
strengthen the role of office directors, deputies, and action officers.

1
    Inspection of the Bureau of East Asian and Pacific Affairs, Report No. ISP-I-04-30, July 2004.
                                               4
                                  SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The distribution of substantive portfolios among EAP’s DAS-level positions appears
based more on tradition than current priorities. As is the case in EAP, but not in most other
regional bureaus, the EAP principal DAS supervises a significant geographic office account, in
the current case the two offices for Southeast Asia. The principal DAS also supervises the
Executive Office (EX), but not the office responsible for strategic planning and foreign
assistance resources (see Box–1 for listing of EAP DAS assignments). Working with the region’s
multilateral institutions and advancing regional economic interests are key policy priorities, but
different DAS-level officials lead the offices responsible for multilateral engagement and
economic issues, functions that increasingly overlap. The PD DAS has no responsibility other
than public affairs and PD, which is not yet fully integrated into the bureau’s policymaking and
strategic planning processes.

         At a time when EAP’s highest policy priorities cut across the bureau and require an
integrated effort by the bureau’s offices and overseas missions, the principal DAS should serve
as EAP’s driver of integration and supervise those offices with bureauwide responsibilities, such
as for strategic planning and budget, as well as PD, rather than offices that focus on only part of
the region and require significant travel. Similarly, having one DAS supervise EAP’s economic
and multilateral engagements, which are increasingly interrelated, would strengthen EAP’s
ability to promote regional collaboration. Finally, as long as there is a PD DAS, the position
could also supervise one geographic office, making PD’s integration into the main business of
the bureau more tangible. Reducing the number of DAS-level positions from seven to five and
reassigning portfolios would streamline operations. Box–2 provides two models of how this
could be done.

Recommendation 1: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Human Resources, should reduce its deputy assistant secretary-level positions from
seven positions to five positions and adjust oversight portfolios accordingly. (Action: EAP, in
coordination with DGHR)

                                        BOX–1
                      Current EAP DAS Office Supervision Assignments

       Principal DAS – Mainland Southeast Asia Office, Maritime Southeast Asia Office, and
              Executive Office
       DAS 2 – Japanese Affairs Office and Korean Affairs Office
       DAS 3 – Chinese and Mongolian Affairs Office and Taiwan Coordination Staff
       DAS 4 – Australia, New Zealand, and Pacific Islands Office
       DAS 5 – Public Diplomacy Office and Public Affairs Office
       DAS 6 – Regional and Security Policy Affairs Office and Multilateral Affairs Staff
       DAS-level APEC senior official – Economic Policy Office
       Special Representative and Policy Coordinator for Burma – No office




                                        5
                           SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

                                              BOX–2
                  First Possible Model of Office Assignments for five EAP DASes

         Principal DAS – Executive Office, Regional and Security Policy Affairs Office, Public
                Diplomacy Office, and Public Affairs Office
         DAS 2 – Japanese Affairs Office, Korean Affairs Office, and Australia, New Zealand,
                and Pacific Islands Office
         DAS 3 – Chinese and Mongolian Affairs Office and Taiwan Coordination Staff
         DAS 4 – Mainland Southeast Asia Office and Maritime Southeast Asia Office
         DAS 5 – Economic Policy Office and Multilateral Affairs Staff

                Second Possible Model of Office Assignments for Five EAP DASes

         Principal DAS – Executive Office and Regional and Security Policy Affairs Office
         DAS 2 – Japanese Affairs Office, Korean Affairs Office, and Australia, New Zealand,
                and Pacific Islands Office
         DAS 3 – Chinese and Mongolian Affairs Office and Taiwan Coordination Staff
         DAS 4 – Public Diplomacy Office, Public Affairs Office, Mainland Southeast Asia
                Office, and Maritime Southeast Asia Office
         DAS 5 – Economic Policy Office and Multilateral Affairs Staff


Burma

        Burma’s ongoing reform process and the normalization of bilateral relations represent a
success for U.S. diplomacy. Some of the tasks Congress assigned to the Special Representative
and Policy Coordinator for Burma 2 have already been achieved. With the exception of
congressional consultations, the ambassador on the ground in Burma can more effectively
advance the remaining tasks than the senior advisor in EAP’s front office, who is fulfilling the
Special Representative role. The senior advisor and his staff, as well as the Office of Mainland
Southeast Asia (MLS) director, deputy director, and Burma desk officers all review and edit
policy papers and press guidance, which is needlessly duplicative and confusing to counterparts
outside their offices. The senior advisor has coordinated less with other agencies on Burma
policy and programs than the former Special Representative did; this has complicated other
agencies’ efforts to support policy efforts. Until Congress terminates the Special Representative
and Policy Coordinator for Burma position, it is essential to clarify the chain of command, which
can be done if the senior advisor is supported by the desk, not a separate staff.

2
  Pub. L. No. 110-286, Tom Lantos Block Burmese JADE (Junta’s Anti-Democratic Efforts) Act of 2008 passed on
July 29, 2008, by the 110th Congress established the Special Representative and Policy Coordinator for Burma,
making the position responsible for promoting an international sanctions regime designed to restore civilian
democratic rule to Burma (which is underway) and address the urgent humanitarian needs of the Burmese people.
(The Burmese Government was responsive to implementing international community recommendations to prepare
for tropical cyclone Mahasen in May 2013 in contrast to its inaction with 2008 cyclone Nargis). The Act also made
the Special Representative and Policy Coordinator for Burma responsible for coordinating with exile groups and
relevant governments; assisting United Nations efforts to secure the release of all political prisoners and to promote
dialogue between the State Peace and Development Council (the former military junta, which has been dissolved)
and leaders of Burma’s democracy movement, including Aung San Suu Kyi (now a member of Parliament); and
consulting on policies with Congress.
                                              6
                                 SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

Recommendation 2: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Legislative Affairs and the Bureau of Human Resources, should seek congressional
approval to terminate the position of the Special Representative and Policy Coordinator for
Burma and transfer position number D05645300 to the Office of Mainland Southeast Asia.
(Action: EAP, in coordination with H and DGHR)

        The staff members working on Burma in the senior advisor’s unit and MLS deserve the
accolades they received from Embassy Rangoon and Department and other agency counterparts
for their achievements. Although communication is strong, their respective responsibilities and
portfolios had not been defined. At the suggestion of inspectors, MLS proposed a clear
delineation of responsibilities between the two desk officers.[Redacted] (b) (5)

                                        As the bilateral relationship continues to develop, it is
important for EAP to restructure the Burma team and increase working-level staff to meet the
demands placed upon them.

           Informal Recommendation 1: The Bureau of East Asian and Pacific Affairs should
           reorganize the Office of Mainland Southeast Asia into a Burma unit headed by an FS-01,
           using position number D05645300, and desk officers with clearly defined portfolios, with
           the office’s remaining country desk officers reporting to the existing FS-01 position.

Resourcing Rebalance

         EAP has a chronic shortage of direct-hire domestic staff. The 2004 OIG inspection
reported, “EAP lacks adequate domestic staff to sustain a busy operation. It strains to maintain
routine activity without virtually any surge capacity.” 3 The 2004 inspection noted that more than
20 percent of EAP’s staffing was nonpermanent, for example, temporary duty Foreign Service
officers (so-called “Y tours”), various fellowship programs, interns, and other kinds of
nonpermanent staffing. Inspectors found in 2013 that the only change was that the rebalancing
initiative had brought EAP more work, but little in the way of additional resources. Enhanced
engagement requires more work in EAP’s domestic offices, not just overseas. The Department’s
Diplomacy 3.0 initiative strengthened staffing in EAP’s overseas missions but provided only
four domestic positions. Currently, some 22 percent of the bureau’s staffing is nonpermanent.
Enhanced engagement with the Asia-Pacific region is likely to be a durable foreign policy
priority for this and future administrations; it is essential that EAP be staffed accordingly.

         As in 2004, the OIG team assesses in 2013 that EAP strains to meet its current
responsibilities and has no surge capacity. EAP deserves credit for the imagination it has shown
in utilizing a variety of programs to obtain nonpermanent staff. Many of these staff members
have brought experience, talent, and enthusiasm that have greatly contributed to the bureau’s
work. But as the 2004 inspection report noted and inspectors confirmed during this inspection, ad
hoc staffing is costly in terms of supervisory time needed to acquire, train, and supervise staff
members who in most cases leave after a year or less.

         There are other costs when policy gets ahead of the resources needed to support it. EAP
staff responses to OIG questionnaires indicate generally high morale[Redacted] (b) (5)

3
    Inspection of the Bureau of East Asian and Pacific Affairs, op. cit., p. 29.
                                                 7
                                    SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5)



        In its FY 2012–14 resource plans, EAP asked for a total of 4 new domestic positions (and
24 overseas positions). Midway through the FY 2014 budget process, the National Security Staff
led an interagency assessment of whether the administration’s overall budget proposal reflected
the high priority attached to the Asia-Pacific region. The conclusion was that it did not. One
result was that the Office of Management and Budget included in its FY 2014 budget pass back
to the Department 24 new positions for EAP (and only 3 for the rest of the Department). EAP
has produced a plan allocating 10 of these positions domestically and 14 for its overseas
missions. EAP almost certainly needs more of these positions to be domestic.

Recommendation 3: The Bureau of East Asian and Pacific Affairs should assess its domestic
staffing needs and produce a bureau staffing plan that reduces its reliance on nonpermanent staff
to accomplish its work. (Action: EAP)

       Informal Recommendation 2: The Bureau of East Asian and Pacific Affairs should
       give priority to meeting the domestic staffing needs identified in the bureau staffing plan
       for any new positions received in the FY 2014 budget and subsequent budgets until all
       domestic needs are met.

Strategic Planning

        EAP produces good strategic planning documents. The EAP/U.S. Agency for
International Development (USAID) Joint Regional Strategy: FY 2015–17 is, for the most part,
well done, as are the past three Bureau Resource Requests. The bureau used a collaborative
process to produce the Joint Regional Strategy. EAP, however, has no process for evaluating
implementation of its strategic plan, for example, progress towards meeting goals and identifying
new opportunities and problems. This situation stems in part from understaffing in the Office of
Regional and Security Policy Affairs (RSP). Two U.S. direct-hire employees in RSP manage the
bureau’s strategic planning and foreign assistance budgeting. The unit is inadequately staffed to
carry out its current responsibilities and cannot effectively support overseas missions’ planning.
The two employees report to different supervisors. It is important for the bureau to create a
strategic planning and budget unit in RSP and provide it with the staffing needed to oversee the
additional foreign assistance the bureau expects to receive and to implement the February 2012
Department Program Evaluation Policy.

       Informal Recommendation 3: The Bureau of East Asian and Pacific Affairs should hold
       semiannual meetings with the U.S. Agency for International Development, chaired by the
       principal deputy assistant secretary, to assess implementation of its strategic plan and
       report results to front office officials and office directors.

       Informal Recommendation 4: The Bureau of East Asian and Pacific Affairs should
       create a unit for strategic planning and foreign assistance and assign sufficient direct-hire
       staff to the unit.

                                        8
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Communication and Decisionmaking

        EAP’s 2013 priorities require collaboration across offices and embassies. EAP is
markedly better at sharing information than it was in 2004 but can still do more to ensure the
bureau works as an integrated team. The front office’s regular meetings facilitate a steady flow
of information among front office principals and with office directors and deputies, most of
whom do a good job of sharing information with their staffs. EAP staff members appreciate that
DASes hold weekly “all hands” meetings with the offices they supervise.

         EAP has strong operational communication with its overseas missions but provides less
strategic direction. Most EAP embassies surveyed by OIG inspectors want more communication
with the front office. Inspectors asked for examples of guidance to the field on the rebalancing
initiative and found that EAP sent the only specifically tailored unclassified guidance for
embassies in February 2013, more than a year after the initiative was launched. Inspectors
counseled bureau officials not to rely on senior officials’ speeches to convey strategic policy
guidance to EAP’s overseas missions. EAP’s geographic offices send daily wrap-up emails to
their embassies; functional offices send periodic emails and cables. Embassies praise the support
they receive from the geographic offices but found less value in the bureau’s functional offices,
except for PD and public affairs. Some officials in and out of the Department believe EAP could
do more to draw on the expertise in its embassies in shaping and driving policy. These officials
also note the value of regular EAP chiefs of mission meetings and regret they were held less
frequently in recent years because of budget constraints.

       The front office makes most decisions in face-to-face meetings, rather than in response to
formal decision memoranda. Some bureau staff members expressed concern that this method
does not always allow them to provide bureau leadership with the full picture and reasoned
options and can result in partial decisions. Greater use of decision memos and record emails
would streamline operations and enhance effectiveness and accountability.

Public Diplomacy

        The PD DAS oversees two offices. The PD office focuses on the overseas dimension of
PD and includes two staff members embedded in EAP’s large geographic offices. The public
affairs office handles press and other information-related issues. Since these offices are
colocated, have a history of cooperation, and are well-led by experienced officers, the most
important function of the PD DAS is to represent and explain the PD dimension in bureau
policymaking meetings and processes.

        Despite the high marks the PD DAS gets from front office and bureau colleagues, PD is
not well integrated with the rest of the bureau. Geographic offices occasionally draft policy
documents that do not include PD aspects. The EAP/USAID Joint Regional Strategy: FY 2015-
17 does not integrate PD into all of its goals. This shortcoming stems, in part, from the lack of a
regionwide PD strategy. A rebalancing PD strategy would serve as a framework to support
requests for the resources needed for EAP embassies’ PD programs. A strategy would also focus
EAP staff on the PD dimensions of pursuing the bureau’s policy priorities early in the process,
rather than as a late add-on. Over the longer term, making the principal DAS responsible for PD
as well as other functional offices with bureauwide responsibilities would more effectively
integrate PD into the bureau’s work.
                                        9
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Recommendation 4: The Bureau of East Asian and Pacific Affairs should implement a
regionwide public diplomacy strategy linked to the Joint Regional Strategy. (Action: EAP)

       Public affairs officers in EAP missions were generally satisfied with the support from
Washington, but many wanted more regular communication. The PD office started a monthly
telephone call with public affairs officers during the inspection, in which the office director and
PD DAS participate.

Talent Management

        EAP does not have a formal strategy for managing its talent, although individual DASes
and office directors pay varying degrees of attention to assignments and training. A significant
number of countries in the Asia-Pacific region speak what the Department classifies as hard or
super hard languages and many of EAP’s overseas positions require language proficiency. The
Department makes a considerable investment in training EAP personnel in these languages. EAP
and the Department generally encourage language proficient personnel to serve multiple tours to
hone their linguistic and regional expertise. This process strengthens subregional expertise but
can limit opportunities for the employees to gain the broader experience necessary for senior
leadership, absent a strategy for managing and cultivating talent. This is particularly true in
bureaus, such as EAP, that have a large number of front office personnel, which reduces the role
of office directors and diminishes responsibility at every level. Asked who the bureau’s chief
talent management officer is, most EAP staff either pointed to the executive director or said there
was none. Standard practice in high-performing organizations is to have a senior front office
executive ensure appropriate attention is paid to recruiting, developing, and advancing the talent
needed for the organization’s future leadership.

       Informal Recommendation 5: The Bureau of East Asian and Pacific Affairs should
       designate the principal deputy assistant secretary to oversee recruitment and staff
       development.

        EAP has had a reputation for not being particularly welcoming to women or minorities.
The acting Assistant Secretary and acting principal DAS have taken steps to increase the number
of women and minorities in key positions overseas and hope to do better domestically in the
future. EAP staff members, in their responses to OIG questionnaires and personal interviews, did
not raise concerns about discrimination, but many noted the absence of women in leadership
positions (EAP has 1 female DAS-level official out of 7 DAS-level officials and 3 female office
directors out of 13 office directors). The inspection team’s review of EAP shortlists for chief of
mission, deputy chief of mission, and principal officer positions did not indicate any systematic
gender bias. Female candidates were on most lists EAP submitted to the Bureau of Human
Resources. (It was not possible to ascertain other diversity criteria from the available material.)

Civil Service Issues

       The challenge of attracting, retaining, and providing a career path for high-quality Civil
Service employees is not unique to EAP; it is a Departmentwide issue that cannot be addressed
by one bureau. Civil Service employees comprise approximately one-third of EAP’s direct-hire
domestic personnel. Based on OIG questionnaires, Civil Service personnel morale in EAP, while
                                        10
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

good [Redacted] (b) (5)
                             Many Civil Service employees who work on policy and program
implementation in the geographic and functional offices came to the Department via a
competitive process, such as that for the Presidential Management Fellow Program. They are
talented and hardworking, generally have advanced degrees in international fields, often have
regional language skills, and are enthusiastic about working in EAP. As a group, they are
frustrated by the lack of career opportunities in EAP, a bureau with no GS-15 positions in its
geographic and functional offices.

        With the encouragement of the former Assistant Secretary, Civil Service employees
serving in EAP as foreign affairs officers and similar positions formed a task force as a forum to
engage the front office and other relevant offices in the Department on career development
issues. The task force has met several times and briefed inspectors. Members say they feel
valued by their offices, enjoy their work, and appreciate front office concern with their situation.
However, they note that several members have left EAP for higher-graded jobs elsewhere.
During the inspection one employee departed for the private sector. EAP converted the position,
one of the few GS–14 positions outside of EX, to a Foreign Service position, something many in
the group saw as removing an opportunity for upward mobility. EAP said the conversion of the
position to Foreign Service is temporary because of sequestration-mandated hiring limitations.

       EAP needs capable Civil Service staff members for continuity and expertise, particularly
on issues that involve annual summit- or cabinet-level meetings with agendas that include
technical issues. EAP is responsible for ASEAN ministerial meetings in July and APEC
ministerial and leaders meetings in October, as well as the East Asia Summit, which creates
operational challenges given the Foreign Service summer transfer season.

Recommendation 5: The Bureau of Human Resources should seek to expand the Overseas
Development Program to provide Civil Service personnel with additional career development
opportunities in overseas missions. (Action: DGHR)

       Informal Recommendation 6: The Bureau of East Asian and Pacific Affairs should
       review its current office staffing structure and convert at least one additional deputy
       office director position from a Foreign Service position to a Civil Service position.




                                        11
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
        EAP has three kinds of offices for policy and program implementation. The first are three
large geographic offices for China/Mongolia, Japan, and Korea, with officers who handle
bilateral and functional issues. The second are three geographic offices for the countries of
Southeast Asia and the Pacific area that have one- and two-officer desks for each country, but no
direct-hire positions for functional issues. Finally, EAP has five small functional offices that
handle functional, regional, and multilateral work (see staffing details in Appendix).

         Despite the creation in 2011 of a small Multilateral Affairs Staff unit (MLA), which is
informally called an office in EAP but established officially as a staff unit attached to the front
office, EAP is not optimally organized or staffed to deal with its rebalancing policy priorities. Its
ability to focus on economic and trade issues is limited, its capacity to promote crosscutting
security and global interests in the region is weak, and it has not yet integrated multilateral
priorities into its work.

Strengthening Regional Institutions and Integration

         Over the past 3 years, EAP has made strengthening and shaping Asia’s regional
institutions a top priority, but the bureau is inadequately staffed and not well structured to
achieve this objective effectively. The bureau’s success is due to the creativity of its employees
and their willingness to work unsustainably long hours to support five ministerial and two
summit-level meetings annually, as well as dozens of lower-level meetings. This workload is
increasing. It is also important for EAP to improve communication on multilateral issues among
its functional and geographic offices and its overseas missions.

      MLA, RSP, and the Office of Economic Policy (EP) are too understaffed to fulfill their
growing responsibilities effectively. [Redacted] (b) (5)

                With five direct-hire positions, EP focuses on coordinating U.S. participation in
an expanding APEC. EAP created MLA to increase U.S. multilateral engagement with Asia’s
other multilateral organizations. Four of MLA’s six direct-hire positions were taken from RSP,
which was left with seven direct-hire positions to advance U.S. global and security interests
regionally and to manage strategic planning and foreign assistance budgeting.

        All three offices rely heavily on nonpermanent personnel to augment their direct-hire
staffing. Bureau leadership has not prioritized MLA’s workload, making long hours even longer.
No EAP geographic or functional office has a position formally designated as deputy director,
although each office is organized with a position that functions as a deputy director. There are
different structural problems affecting the employees serving as deputies in EP, RSP, and MLA.
There are unclear lines of authority between the EP deputy director and the de facto head of the
APEC unit. RSP is so understaffed that its deputy needs to become an action officer. MLA’s de
facto Civil Service deputy does not have supervisory authority.

        In addition to staffing issues, the three offices’ multilateral and functional responsibilities
are poorly aligned, diffusing subject matter expertise, complicating coordination, and making it
hard to leverage potential synergies. APEC and ASEAN both advance economic and

                                        12
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

environment, science, technology, and health issues. EP personnel coordinate these issues in
APEC, while MLA personnel lead these efforts in ASEAN, the East Asia Summit, and other
regional organizations. RSP is charged with advancing regional security and political-military
issues, but MLA coordinates these same issues within the ASEAN Regional Forum and the East
Asia Summit. RSP is responsible for liaison with the Department of Defense but has no military
advisors, while MLA has two military advisors working on security and other issues in the
ASEAN Regional Forum. EP and MLA personnel have to surge to support their organizations’
meetings, but the three offices have only informal arrangements to back up each other during
periods of heavy workload or absences caused by travel.

        Department regional bureaus have a variety of models for staffing their multilateral,
functional, and geographic offices in accordance with the scope of action of the region’s
multilateral organizations and each bureau’s determination of the proper balance between
country-specific knowledge and functional expertise. Guidance in the Foreign Affairs Manual, 1
FAM 014.7 e. (1) and (2), specifies that like functions should be grouped together in an
organization and integral policy or operational fields should not be divided into separate offices;
1 FAM 014.7 d. (1) states an office must have at least 12 full-time/part-time permanent positions.
EAP could reorganize RSP, EP, and MLA into two offices, one office for security, global affairs,
and strategic planning and a second office for economic and multilateral affairs. Alternatively,
EAP could merge all three offices into a single office and establish a separate staff unit for
strategic planning and budget that reports to the principal DAS.

Recommendation 6: The Bureau of East Asian and Pacific Affairs should restructure the
Office of Regional and Security Policy Affairs, the Office of Economic Policy, and the
Multilateral Affairs Staff unit into either two offices or one office and a staff unit for strategic
planning and budget. (Action: EAP)

        The bureau has not adopted a multilateral strategy or an interagency action plan to
achieve the strategy, hindering EAP’s ability to advance issues in the various multilateral
organizations and within the U.S. Government. Inadequate planning and limited staff produce
proposals that, although innovative, are often presented too late to be coordinated effectively
with other agencies, overseas missions, and other governments. Other U.S. Government agencies
described various Department bureaus’ occasional overlapping of multilateral initiatives as
confusing and would appreciate clear EAP guidance so they can effectively prioritize their
limited staffing and funding. Action officers are focused on preparing principals for successive
high-level meetings and readying deliverables, such as new agreements for officials to announce
during the meetings. However, EP, MLA, and RSP offices are too understaffed to ensure the
deliverables are being implemented effectively before staff members shift their attention to the
next meeting.

        It is also important for EAP to improve coordination with its overseas missions on
multilateral priorities. EAP’s overseas missions rated the value of support from the bureau’s
three functional offices, particularly MLA, far lower than the support from their geographic
office. Although policymakers have encouraged EAP overseas missions to integrate multilateral
policy advocacy and reporting into their work, few have done so well. Staff in functional offices
point to a number of examples where EAP overseas missions did not respond to key taskings on
multilateral issues. Making geographic office deputy directors or unit chiefs responsible for
coordinating multilateral work within their offices would improve followup. EAP is not actively
                                        13
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

guiding or facilitating the work of the U.S. Mission to ASEAN, established in 2011. It is time for
EAP and the mission to determine the mission’s priority objectives and monitor progress in
reaching them.

       Informal Recommendation 7: The Bureau of East Asian and Pacific Affairs should
       prepare an authoritative document, supplementing the Bureau of East Asian and Pacific
       Affairs/U.S. Agency for International Development Joint Regional Strategy, describing
       its strategy to achieve its multilateral goals.

Advancing Economic Prosperity

        The White House has made economic engagement and trade with the Asia-Pacific region
one of its top priorities for the rebalance, singling out the need to support American jobs and to
create economic opportunities. The bureau would be more effective in advancing this goal if it
had an action plan and restructured its economic positions.

        The second goal in EAP’s Joint Regional Strategy is economic growth and trade, but the
three objectives under this goal are too abstract and high-level to guide the day-to-day work
needed to achieve them. The EAP front office gives economic issues a lower priority than
political and security issues.

Recommendation 7: The Bureau of East Asian and Pacific Affairs should develop an action
plan to implement the economic goal of its Joint Regional Strategy. (Action: EAP)

        The APEC senior official and EP effectively coordinate U.S. participation in APEC’s
growing network of working groups. But EP currently lacks the staffing and trade and economic
expertise to provide more than limited assistance to EAP’s geographic offices and embassies or
to develop a regional approach to economic issues. Only one of its five direct-hire incumbents
has a strong background in trade or international economics. EAP has the bulk of its economic
positions in its three large geographic offices: the China desk’s economic unit has three
positions; the Japan desk’s economic unit has four positions; and the Korea desk has two
economic positions. The bureau’s three other geographic offices combined have only two
positions that cover economic issues. Each of those officers, however, is focused on a single
country, Vietnam and Indonesia, rather than on economic issues for the entire office.

        The APEC senior official and EP director have made commendable efforts to improve
bureauwide coordination on economic issues, but they have not been able to overcome
understaffing. As a result, EAP has not played as strong of a role in the Department’s economic
statecraft efforts as might be expected given the importance of trade and economic issues in the
region and the strong economic sections at most EAP overseas missions.

        Whether EAP restructures its three functional offices into two offices or one large office
and a staff unit, the office responsible for economic issues should have a unit that is adequately
staffed to handle regional economic and trade issues, coordinate bureauwide initiatives, and
provide subject matter expertise to the APEC and ASEAN units. The bureau’s geographic
offices, especially the three large country desks, will continue to manage bilateral economic and
commercial issues in coordination with other agencies.

                                       14
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 8: The Bureau of East Asian and Pacific Affairs should
       create a strong regional economic policy unit within the relevant functional office.

Strengthening and Modernizing U.S. Alliances

                                        BOX–3
    South China Sea: A Multi-Office, Multi-Embassy Approach to a Crosscutting Issue

         The South China Sea is a complex regional issue that EAP has addressed by drawing
 on bureauwide expertise. For more than 3 decades, Brunei, China, Malaysia, the Philippines,
 Taiwan, and Vietnam have claimed different parts of the South China Sea. Although tensions
 subsided following the 2002 signing of a nonbinding Declaration on the Conduct of Parties in
 the South China Sea by nearly all of the claimants, tensions have flared up again in recent
 years. The United States does not take a position on the competing territorial claims; it
 supports a collaborative diplomatic process by all claimants and the future conclusion of a
 full code of conduct in the South China Sea.

         South China Sea issues involve a number of EAP offices, Department bureaus, U.S.
 Government agencies, and overseas missions. To facilitate information sharing and enhance
 effectiveness, MLA created a South China Sea email distribution list that includes EAP
 offices and embassies, the Department’s legal experts on Asian and oceans issues, and staff in
 the Bureau of Oceans and International Environmental and Scientific Affairs. This electronic
 working group keeps offices and staff up to date on regional and Washington developments.
 Information is shared, not stovepiped, which enhances EAP’s support of the interagency
 process. In addition, an EAP DAS hosts a monthly meeting with Washington-based members
 of the working group to discuss policy development options.


         Strengthening and modernizing U.S. regional alliances is a rebalance priority. EAP’s
approach has been to increase the number of formal strategic dialogues with America’s treaty
allies and to create trilateral venues so that U.S. allies engage with each other, not just bilaterally
with the United States. In 2012, EAP expanded the U.S.-Japan-Australia Trilateral Strategic
Dialogue initiated in 2005, with a separate defense ministers meeting. EAP initiated a U.S.-
Japan-Republic of Korea Trilateral Strategic Dialogue in 2012 to improve coordination with two
critical allies in northeast Asia. EAP is restarting a trilateral policy planning dialogue with Korea
and Japan and is working with the Department of Defense and the U.S. Pacific Command to
engage Korea and Japan in more multilateral exercises to supplement well-established bilateral
exercises.

        The long-standing U.S.-Australia alliance acquired a new operational element in 2012
with the announced rotational deployment of U.S. Marines to Darwin, Northern Territory,
Australia, one of the most visible elements of the rebalance. This measure enhanced ties with a
valuable ally but drew unfortunate reactions from some other countries, in part because EAP’s
preparations for the announcement did not adequately consider PD aspects in the broader region.
All of these efforts were spearheaded by the geographic offices, with little involvement from
RSP due to its inadequate staffing.


                                        15
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Deepening Partnerships with Emerging Powers

         A key part of the rebalance has been broadening U.S. engagement with emerging
regional powers and increasing activities that reaffirm the longstanding U.S. commitment to the
region’s citizens. To determine EAP’s effectiveness in supporting the rebalance, the OIG team
reviewed in detail one EAP effort to promote these goals: its promotion of the Lower Mekong
Initiative (LMI).

Lower Mekong Initiative

        The Department launched LMI in 2009 to foster cooperation among Cambodia, Laos,
Thailand, and Vietnam and build capacity in education, health, environment, and connectivity. In
2012, Burma joined LMI and the members added food security and energy security pillars to
LMI’s agenda. Progress was initially hampered by inadequate EAP coordination with USAID
and other U.S. agencies, Department bureaus, member governments, and interested governments
and institutions. After uncertain funding and poor coordination made it hard to meet the high
expectations of LMI member states, EAP reached out to USAID as a partner and worked to
secure funding. In July 2012, the United States announced LMI 2020 with $50 million of
planned U.S. funding from FYs 2012–14. New activities, primarily USAID-supported, include
projects to advance sustainable and equitable development in the Mekong watershed, reduce
malaria, strengthen education, and empower women.

      LMI is well underway after some initial startup problems but needs to refine its focus and
cement its achievements (see Box–4 for examples of issues to be addressed).

Recommendation 8: The Bureau of East Asian and Pacific Affairs should prepare and
implement an action plan to institutionalize the successes of the Lower Mekong Initiative.
(Action: EAP)




                                       16
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



                                              BOX–4
                             Building on the Lower Mekong Initiative

   Strategy and Action Plan: EAP has an informal concept paper that proposes how to approach
   future LMI engagement, but EAP does not have an approved strategy or action plan.

   Local Ownership: LMI countries rarely interact in pillar areas without U.S. encouragement.
   Having every LMI country represented on each pillar will increase local interaction, help
   sustain progress between LMI meetings, and identify non-LMI venues for collaboration.

   Dedicated EAP Direct-Hire Staffing: USAID created a two-person LMI coordinating hub in
   Bangkok in 2013. EAP has managed LMI with one nonpermanent staff member. It is
   unrealistic to expect a single nonpermanent staff member to support congressional outreach and
   effectively oversee LMI’s complicated interagency activities.

   Interagency Participation: Other than the Department and USAID, few agencies have
   earmarked funds for LMI-led programs. Nonetheless, more than 40 U.S. Government attendees
   traveled to the April 2013 regional working group meetings. Some U.S. officials did not
   coordinate their attendance or remarks in advance. EAP needs to set deadlines and procedures
   for U.S. Government participation in LMI meetings.

   ASEAN Coordination: LMI and the Initiative for ASEAN Integration share many goals.
   Leaders of these two initiatives agreed in April 2013 to explore how to avoid duplication and
   increase collaboration. Accelerating these efforts would enhance LMI sustainability and
   ASEAN integration.

   Donor Coordination: The Friends of the Lower Mekong includes Australia, Japan, Korea, New
   Zealand, the European Union, the Asian Development Bank, and the World Bank. In July
   2012, the group endorsed a two-track structure to complement existing cooperation. Better
   articulated priorities would make work in both tracks more effective.


Pursuing a Stable and Constructive Relationship with China

        China’s ascent to the position of the world’s second largest economy, its global influence,
and its military strength have made managing a productive U.S.-China relationship an important
goal for U.S. policy. U.S.-China ties are handled by the Office of Chinese and Mongolian
Affairs, EAP’s largest geographic office. But China issues are increasingly crosscutting, with
nearly every office in EAP, most Department bureaus, and almost every U.S. agency engaged to
one extent or another with China.

        The EAP front office and the Office of Chinese and Mongolian Affairs are doing an
excellent job coordinating U.S. engagement with China. The Obama administration has
expanded an already extensive range of dialogues that address bilateral, regional, and global
issues of mutual interest. It has launched initiatives, including the Strategic and Economic
Dialogue (co-led by the Secretaries of State and Treasury), Consultation on People–to–People
Exchange (Secretary of State), Strategic Security Dialogue (Deputy Secretary of State, with
                                                   17
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

participation by the Under Secretary of Defense), Asia-Pacific consultations (Assistant Secretary
of State for EAP), and the U.S.-China Bilateral Consular Dialogue (Assistant Secretary of State
for Consular Affairs). Additional dialogues are led by other Federal cabinet agencies, such as the
Department of Energy. Given the wide-ranging interest in China within executive branch
agencies on issues that do not require formal interagency policy coordination, inspectors
suggested the Office of Chinese and Mongolian Affairs host more informal meetings of action
officers from other agencies on specific issues or engage with visiting staff from Embassy
Beijing and its consulates.

Unleashing Creativity Through Greater Efficiency

        Department principal staffers rank EAP among the best bureaus in the Department for the
quality of its policy documents for Department principals, but some high-level policymakers said
EAP’s policy documents could be more creative and called for EAP to harness its reservoir of
domestic and overseas talent. EAP working-level officers acknowledge that the daily press of
business prevents them from being proactive and more creative. Long hours aggravated by short
deadlines because of insufficient planning, after-hours taskings, laborious processes, and weak
administrative support all take a toll. The bureau can take a number of steps to help its staff be
more efficient and effective.

SharePoint

         Only two EAP offices are using SharePoint to improve efficiency. Desk officers praise
the front office’s transition to SharePoint in 2012 for easing their work. EX is using SharePoint
to facilitate many of its processes. Few personnel in the geographic and functional offices have
been trained to use SharePoint. Officers are not posting schedules, agendas, and common
reference materials, so they are pinged with multiple requests for the latest versions. Desks and
embassies could create a shared visitor calendar to manage visitor loads, a key concern for U.S.
embassies that host large numbers of U.S. visitors, such as Embassy Rangoon.

         Clearing talking points, memos, remarks, and other policy documents is a laborious but
essential task. Desk officers currently request clearances by emailing documents to individuals
and office distribution lists. To test efficiency, inspectors reviewed a routine request to clear
congressional testimony. More than 500 emails were generated to receive clearance from only 4
of 23 clearers. Multiple emails are inefficient for the drafter and needlessly distract nonclearers
from other tasks. A few clearers are so swamped by emails that they miss urgent business. Email
traffic could be reduced by creating a single email address for each office solely for clearance
requests.

         Some offices in the Bureau of Administration and the Bureau of Democracy, Human
Rights, and Labor have used SharePoint to streamline the clearance process. Benefits include
decreased email traffic, providing clearers with the latest document, giving clearers access to
other clearers’ proposed changes, reducing the time drafters spend entering changes, and
facilitating backup arrangements. Using SharePoint 2010 in combination with Windows 7 allows
multiple users to edit the same document simultaneously, removing a hurdle when some offices
first used SharePoint to streamline clearances. The Foreign Service Institute offers SharePoint
training courses online and at its campus.

                                       18
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 9: The Bureau of East Asian and Pacific Affairs should require its
geographic and functional offices to use SharePoint for collaborative tasks and obtain necessary
training for staff. (Action: EAP)

Administrative Staff Support

        EAP has many experienced office support professionals but has not integrated most of
them effectively into its operations. EAP has not surveyed its administrative needs in many
years. One office with only eight other direct-hire positions still has both a Civil Service
professional and a contract office support professional. Managers are responsible for organizing
employees to do work effectively and efficiently, but few are actively managing office support
professionals. Many office support professionals are not fully employed. Some have poorly
defined work requirements with overlapping responsibilities; a number feel unappreciated. Few
offices have an effective system for tasking office support professionals and monitoring task
completion. As a result, most desk officers perform administrative tasks, adding to their
workload and overtime. Most office support professionals want to contribute more to their teams;
some will require training to do so.

Recommendation 10: The Bureau of East Asian and Pacific Affairs should survey its
administrative requirements and adjust administrative staffing as needed. (Action: EAP)

       Informal Recommendation 9: The Bureau of East Asian and Pacific Affairs should
       develop guidelines to hold supervisors accountable for managing office support
       personnel.




                                       19
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Resource Management
Financial and Human Resources

                  Bureau of East Asian and Pacific Affairs Staffing
   U.S.       Foreign       Civil      3161s       While        Detailees     Students/      Total
  Staff -     Service      Service                actually                     Interns
 Domestic                                        employed
                114         64        0              2             3              11          194
   U.S.       Foreign      Civil    3161s          While        Detailees                    Total
  Staff -     Service     Service                 Actually
 Overseas                Excursions              employed
               1,338           0          0           5             8                        1,351



             Bureau of East Asian and Pacific Affairs Funding FY2012
                        Funding Description                                     Amount
                                                                                (000’s)
Traditional Overseas Program Funding
(Diplomatic & Consular Programs)                                                          $182,370
Public Diplomacy (Diplomatic & Consular Programs)                                          $38,916
International Cooperative Administrative Support Services                                  $98,256
Representation – Overseas                                                                   $1,447
Economic Support Funds                                                                      $2,907
Representation – Domestic                                                                      $69
Total                                                                                     $323,965

        EX performs well in supporting EAP’s domestic operations and 23 overseas missions.
Nevertheless, operations can be improved. The single major weakness in EX operations is a
poorly functioning domestic security program. Some bureau employees complained about
uneven responsiveness among EX staff. The human resources unit, in particular, must improve
its customer service. The financial management and general services units work smoothly and
received high scores on the questionnaires. The post management and assignments units are
highly regarded by customers and other bureaus. While inspectors noted a few weaknesses in the
information systems unit’s domestic operations, the staff provides a high level of support to EAP
users.

        At the Department level, EAP/EX has played a critical role in developing and
implementing initiatives to streamline management operations at missions worldwide. The
executive director is respected throughout the Department and the bureau for competence,
leadership, innovation, and hard work but is also seen as being unnecessarily direct on occasion.
Inspectors advised the director to be mindful of the tone used in conveying decisions or
responses to requests.

                                       20
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Management Initiatives

         Numerous Department bureaus and offices praised EX for its leadership and innovation
in proposing and implementing practices to address the Department’s top management
challenges, commonly known as the Top 8 Global Management Priorities for posts, a program
that evolved from the 2011 EAP management officers’ conference. EAP’s executive director has
been at the forefront in reviewing overseas management support processes and developing
procedures to increase efficiency and contain costs. For example, EX is leading the Department’s
effort to regionalize position classification for locally employed staff and to consolidate
administrative support platforms at its larger embassies.

Human Resources

         The performance of the human resources unit is uneven. Many bureau employees are
critical of the unit’s performance and lack confidence in its capabilities and decisionmaking. The
new management officer and human resources officer acknowledge the need to improve
communication and customer service. To improve efficiency and information sharing, the
management officer, human resources officer, and systems staff are expanding and reorganizing
EAP’s human resources SharePoint site. The human resources unit plans to expand use of
automated systems for tracking personnel actions. Recently, EX automated the personnel process
for the approximately 500 overseas and domestic employees who are eligible family members.

        Much of the human resources unit’s work relates to Civil Service personnel. EAP does
not have delegated authority to advertise or classify Civil Service positions. The Joint Executive
Office of the Bureaus of European and Eurasian Affairs and International Organization Affairs
performs these duties under a 2011 service-level agreement. The relationship between the EX
offices is dysfunctional, resulting in delays and miscommunication that contribute to employees’
dissatisfaction. At the time of the inspection, the two EX offices were renegotiating the
agreement to incorporate metrics and operating procedures, define roles and responsibilities, and
improve tracking and accountability.

Orientation

        Almost all EAP employee questionnaires noted the absence of an orientation program.
The 2004 inspection reported a similar situation. EX has developed a basic intranet inprocessing
guide, although delays in getting new employees OpenNet accounts limit its usefulness. Some
offices have developed their own orientations. Staff assistants offer briefings on the paper flow
process and EX’s new brown bag lunches are helpful for explaining its operations to new
employees, but usually take place well after the main transfer season.

Recommendation 11: The Bureau of East Asian and Pacific Affairs should develop an
orientation program that introduces new employees to administrative services and the tradecraft
aspects of their jobs, including public affairs. (Action: EAP)

Equal Employment Opportunity Program

       EAP does not have a domestic Equal Employment Opportunity program or any trained
and appointed Equal Employment Opportunity counselors. The Department does not require that
                                       21
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

every bureau appoint Equal Employment Opportunity counselors, but doing so and publicizing
the program would make employees better aware of Department and U.S. Government Equal
Employment Opportunity processes and points of contact. The inspectors did not observe posters
displayed in offices and found no Equal Employment Opportunity information or links on the
EAP Web site. The Office of Civil Rights works with bureaus to establish Equal Employment
Opportunity programs, train counselors, furnish materials, and conduct awareness sessions. The
Office of Civil Rights reported that there are no active Equal Employment Opportunity cases in
EAP.

Recommendation 12: The Bureau of East Asian and Pacific Affairs should implement an Equal
Employment Opportunity program. (Action: EAP)

Assignments

       Annually, EAP assigns personnel to approximately 360 Foreign Service positions, both
overseas and domestic. Approximately 4,000 bids are received for those positions. Only two
posts—Shenyang and Dili—are difficult to staff. The Office of Career Development and
Assignments praised EAP’s collaborative approach to assignments.

        The EAP region includes three of the Department’s four super hard languages and many
positions that require proficiency in other hard languages spoken in only a single country. The
EAP assignments staff and the Office of Career Development and Assignments, in coordination
with the Foreign Service Institute, work closely to synchronize language training schedules. The
assignments officers engage frequently with the geographic and functional offices and post
management officers. The assignments unit also mentors the bureau’s first- and second-tour
employee group.

Financial Management

       EAP’s Resource Planning Management unit performs well in managing EAP’s overseas
and domestic financial resources, totaling about $324 million in FY 2012. The unit also prepares
EAP budget submissions and provides guidance to overseas missions on financial management
and budgetary policies and procedures. The unit works collaboratively with bureau colleagues
and other bureaus. Customers surveyed expressed satisfaction with the support they receive.

Travel

        EAP averages $3 million annually for worldwide travel by Washington-based employees.
The executive director and front office review travel requests on a case-by-case basis. Some
employees, including senior officers, expressed dissatisfaction with the lack of predictability and
transparency in the travel approval process, even though they acknowledge that requests are only
infrequently disapproved. The bureau does not have a travel plan that allocates travel funds by
office. Such a plan would assist in planning, prioritizing, and linking travel to policy goals.

         Informal Recommendation 10: The Bureau of East Asian and Pacific Affairs should
         implement an annual travel plan process that requires offices to manage their travel
         funds.

                                        22
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

         Controls for business class travel were in place and operating. The bureau’s travel policy,
posted on its intranet site, is consistent with Department policy and restricts business class travel
to trips over 14 hours. Due to the distance between Washington and EAP countries, much bureau
travel qualifies for business class. Over the past 12 months, EAP employees submitted requests
for 558 trips. Business class was authorized for 146 trips (approximately 25 percent). To comply
with the Department’s instructions to reduce travel expenses below FY 2010 levels, EX and
office directors agreed to limit homeward travel to coach class. Some offices have gone further
and completely stopped using business class. The Department’s Travel Oversight Program
review of EAP vouchers for the last half of FY 2012 found no problems.

General Services

       The general services unit operates well. Its activities include property management,
purchase card services, work order execution, travel voucher review, and logistics support for
domestic operations. The unit administers the bureau’s emergency action program. Issues related
to property management and the purchase card program are discussed in the Management
Controls section of this report.

         The general services staff assists desk officers in arranging logistics for conferences and
domestic representational events, including those outside Washington, DC. This process needs to
be improved. While the EAP Web site provides procedures for domestic events, some EAP desk
officers were confused about respective roles and responsibilities. They complained about being
left on their own to identify venues, negotiate relevant contracts, and finalize all of the logistical
arrangements.

       Informal Recommendation 11: The Bureau of East Asian and Pacific Affairs should
       review and reissue its written policy regarding logistical support for domestic
       conferences and representational events and delineate the responsibilities of desk officers
       and the general services unit.

Emergency Preparedness

       EAP’s emergency preparedness program and emergency action plan comply with
Department requirements, but inspectors observed that the identification of the mission critical
team and emergency action team were not up to date. Most mission critical team members were
not identified in the Centralized Emergency Notification System and had not been notified in
writing as required by 6 FAM 422.3-4. EAP corrected these deficiencies during the inspection.
Additionally, the EAP duty officer program documentation was outdated and not aligned with
the emergency action plan. The bureau corrected this deficiency during the inspection. Bureau
employees would benefit from refresher training on emergency preparedness. The Bureau of
Administration, Office of Emergency Management, conducts orientation programs and has
provided EAP with the schedule of upcoming orientation sessions.

       Informal Recommendation 12: The Bureau of East Asian and Pacific Affairs should
       schedule an orientation program with the Office of Emergency Management as soon as
       its mission critical team is in place.


                                        23
                            SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

      Post Management

              The post management unit effectively provides management support to overseas
      missions. Post management officers coordinate and liaise effectively with missions, country
      desks, and Department functional bureaus. The unit carries out contracting officer’s
      representative duties for labor force contracts in China and Vietnam.

              Post management officers are heavily involved in the Top 8 Global Management
      Priorities for posts initiatives. One officer collaborated with the Bureau of Administration and
      other regional bureaus to implement the requirements of the May 2011 Presidential
      Memorandum on Federal Fleet Performance. As a result, in April 2013 the Department
      announced new fleet management procedures.

      Security
[Redacted] (b) (5)




                                             24
                                 SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED
[Redacted] (b) (5)




           Recommendation 13: [Redacted] (b) (5)




           Executive Office Responsibility for the Bureau Security Program

                  According to 12 FAM 512.2, the executive director of each bureau must maintain the
           program designed to ensure compliance with the provisions of these regulations, and the
           executive director is responsible for ensuring that the bureau has a designated security officer
           and must work with that officer to ensure all employees are aware of the security requirements.
           EX, however, has no direct supervisory authority over the bureau security officer, who is a
           Bureau of Diplomatic Security employee rated by a Bureau of Diplomatic Security supervisor.

           Recommendation 14: The Bureau of Diplomatic Security, in coordination with the Bureau of
           East Asian and Pacific Affairs, should implement a procedure to hold the bureau security officer
           accountable for carrying out the position’s responsibilities for the Bureau of East Asian and
           Pacific Affairs domestic security program. (Action: DS, in coordination with EAP)

           Information Management

                   EAP’s systems unit provides responsive support to the bureau’s domestic staff and
           overseas missions. Both EX leadership and the bureau’s overseas missions are very satisfied with
           the support provided by the regional information management officer, and employees praised the
           support provided by domestic systems staff. OIG inspectors, however, identified several areas
           that require action.
   [Redacted] (b) (5)




                                                  25
                                      SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED

       Recommendation 15: [Redacted] (b) (5)



[Redacted] (b) (5)




       Recommendation 16: [Redacted] (b) (5)



       Knowledge Management

                EAP is neither using technology as well as it could to support its business needs nor
       maintaining official records in accordance with Department standards. EAP has made little
       progress since it started developing a knowledge management program in 2010. Two successive
       contractors failed to develop a working system that integrates shared drives with SharePoint.
       During the inspection, the current contract was terminated. EAP plans to solicit bids for a new
       contract for its knowledge management program but had not issued a solicitation by the
       inspection’s conclusion. It could be less expensive for the bureau to use a direct-hire position for
       the critical role of knowledge manager, supported by contractors as needed.

                Informal Recommendation 13: The Bureau of East Asian and Pacific Affairs should
                move expeditiously to solicit bids for a new knowledge management contract.

       Recordkeeping and Retirement

               Bureau personnel are not maintaining and retiring official records 4 in accordance with
       Department standards, including 5 FAM 414.4. EAP does not have established guidance and
       procedures for maintaining official records. EAP staff members store official records variously
       on personal drives, email folders, shared drives, and SharePoint. Bureau shared drive folders are
       not organized in accordance with Department guidance. Colleagues in the same office may not
       be mapped to the same shared drive. One office undertook a time-consuming but useful process
       to get all of its personnel mapped to the same shared drive. Good records management practices
       enable the Department to perform its functions and recover from a disaster.


       4
         The definition of records in 44 U.S.C. Ch. 33 § 3301 “includes all books, papers, maps, photographs, machine
       readable materials, or other documentary materials, regardless of physical form or characteristics, made or received
       by an agency of the United States Government under Federal law or in connection with the transaction of public
       business and preserved or appropriate for preservation by that agency or its legitimate successor as evidence of the
       organization, functions, policies, decisions, procedures, operations, or other activities of the Government or because
       of the informational value of data in them.”
                                                    26
                                        SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

        EAP is not retiring records properly. From 2010 to 2012, only three geographic offices
retired files dated from 1955 to 2006. The Department’s Domestic Records Disposition
Schedules specifies that EAP’s offices should retire subject/program files and historical files
within 3 and 5 years, respectively. 5 Proper disposition of records makes information available in
the future for policy analysis and archival research.

Recommendation 17: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Administration, should implement procedures to maintain and retire official records in
accordance with Department of State standards. (Action: EAP, in coordination with A)

Individual Development Plans

         Systems office staff members do not have individual development plans. Individual
development plans assist personnel with their career development and help them obtain relevant
knowledge and skills. Guidance in 13 FAM 022.3 (6) recommends individual development plans
for all employees. Inspectors encouraged information technology staff to prepare individual
development plans.

Systems Documentation for Web Applications

        Systems documentation for EAP’s Web-based applications requires attention. EAP has
12 Web-based applications, which the systems staff developed and supports. Users submit
requests for system changes. The regional information management officer reviews and
prioritizes change requests. The Web developer implements system changes using a rapid
development methodology, a software development process based on minimal planning in favor
of rapid prototyping. Due to the fast turnaround of changes with this methodology, the staff is
not documenting the changes made to EAP applications, which can lead to potential
inefficiencies and vulnerabilities.

Recommendation 18: The Bureau of East Asian and Pacific Affairs should implement a formal
process for requesting and making system changes to Bureau of East Asian and Pacific Affairs
Web applications that includes documenting each change made. (Action: EAP)

Support from the Bureau of Information Resource Management

        The Bureau of Information Resource Management provides EAP desktop support,
including all desktop computers and printers. A service-level agreement between the two bureaus
outlines performance measures and expectations. The systems staff meets as needed with the
Bureau of Information Resource Management customer liaison division and both groups
commented that the level of contact is sufficient. Survey responses from EAP staff showed low
satisfaction with the level of information technology support by the Bureau of Information
Resource Management. A review of EAP trouble tickets over the past 90 days, however, shows
that the Bureau of Information Resource Management met the agreement’s resolution times in 93
percent of the cases.



5
    Department of State Domestic Records Disposition Schedules A-21-041 through A-21-048
                                            27
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Record Emails

        EAP is not making effective use of the record email function in the State Messaging and
Archive Retrieval Toolset application. EAP’s desks and overseas missions exchange valuable
reporting in daily official-informal messages and other emails. Many Washington end-users do
not receive and cannot retrieve these messages. Offices that transmit information through email
that must be preserved according to 5 FAM 443.2 are not using this system for creating and
archiving record emails. Unless the bureau addresses this issue, important data needed for policy
analysis and archival research will not be available in the future. Some bureau staff members are
aware of this shortcoming and have tried to use record email, but they report it is too
cumbersome and time-consuming to use.

Recommendation 19: The Bureau of East Asian and Pacific Affairs should issue a management
notice on the use of record email and obtain necessary training for personnel on using the State
Messaging and Archive Retrieval Toolset record email component. (Action: EAP)

Recommendation 20: The Bureau of Information Resource Management, in coordination with
the Bureau of Administration and the Bureau of Public Affairs, should assess the State
Messaging and Archive Retrieval Toolset record email component and, based on user feedback
from Department of State bureaus, improve its user functionality. (Action: IRM, in coordination
with A and PA)




                                       28
                           SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Management Controls
        The Assistant Secretary’s Management Control Statement of Assurance, prepared in
accordance with 2 FAM 020, is based on the consolidated reporting of all EAP missions and
domestic offices. EX staff reviews each mission’s internal assessments and supporting
documentation. The executive director and the front office consult to identify any issues that
must be reported in the Assistant Secretary’s statement. The statement for the period August 1,
2011, to July 31, 2012, disclosed a significant deficiency in EAP’s oversight of financial
management operations of the American Institute in Taiwan/Washington. OIG inspectors
identified the deficiency during a 2012 inspection of the office. 6 OIG is tracking EAP’s
compliance with the inspection report’s recommendations. The statement reported no other
weaknesses or deficiencies.

Property Management

        EAP is responsible for $552,000 in nonexpendable property. In 2012 EAP reported 17
items missing, mostly information technology equipment valued at $12,934, a shortage that
exceeds the Department’s 1 percent threshold. EAP reported the loss, circumstances, and
proposed corrective actions to the Department’s Property Survey Board. At the time of the
inspection, the board had not yet made a determination regarding resolution of the loss.

        Inspectors found some management control techniques were not implemented, thereby
increasing the risk of loss. Separation of duties was inconsistent. In some cases, one employee
performed multiple functions (for example: receiving, recordkeeping, and conducting the
inventory). Periodic management reviews required by 14 FAM 423.1 were not performed. There
is only one area custodial officer for the bureau, which has widely dispersed office suites.

Recommendation 21: The Bureau of East Asian and Pacific Affairs should bring its property
management function into compliance with Department of State requirements. (Action: EAP)

Purchase Card Program

         For FY 2012, EAP had 582 purchase card transactions totaling $198,000. Three EX
employees use five purchase cards. At the time of the inspection, the general services unit had
not performed monthly reconciliations for two of the cards over a period of 4 months. As a
result, the bureau did not have assurance that transactions were free from error or misstatement.
Monthly account reconciliations are required by the Department’s Worldwide Purchase Card
Program Manual. The bureau corrected the deficiency during the inspection. The bureau’s
annual purchase card review for 2012 was completed satisfactorily.

           Informal Recommendation 14: The Bureau of East Asian and Pacific Affairs should
           implement management control techniques to ensure timely completion of purchase card
           statement reconciliations.




6
    Inspection of the American Institute in Taiwan/Washington, Report No. ISP-I-12-47, September 2012.
                                             29
                                 SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Human Resources, should reduce its deputy assistant secretary-level positions from
seven positions to five positions and adjust oversight portfolios accordingly. (Action: EAP, in
coordination with DGHR)

Recommendation 2: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Legislative Affairs and the Bureau of Human Resources, should seek congressional
approval to terminate the position of the Special Representative and Policy Coordinator for
Burma and transfer position number D05645300 to the Office of Mainland Southeast Asia.
(Action: EAP, in coordination with H and DGHR)

Recommendation 3: The Bureau of East Asian and Pacific Affairs should assess its domestic
staffing needs and produce a bureau staffing plan that reduces its reliance on nonpermanent staff
to accomplish its work. (Action: EAP)

Recommendation 4: The Bureau of East Asian and Pacific Affairs should implement a
regionwide public diplomacy strategy linked to the Joint Regional Strategy. (Action: EAP)

Recommendation 5: The Bureau of Human Resources should seek to expand the Overseas
Development Program to provide Civil Service personnel with additional career development
opportunities in overseas missions. (Action: DGHR)

Recommendation 6: The Bureau of East Asian and Pacific Affairs should restructure the
Office of Regional and Security Policy Affairs, the Office of Economic Policy, and the
Multilateral Affairs Staff unit into either two offices or one office and a staff unit for strategic
planning and budget. (Action: EAP)

Recommendation 7: The Bureau of East Asian and Pacific Affairs should develop an action
plan to implement the economic goal of its Joint Regional Strategy. (Action: EAP)

Recommendation 8: The Bureau of East Asian and Pacific Affairs should prepare and
implement an action plan to institutionalize the successes of the Lower Mekong Initiative.
(Action: EAP)

Recommendation 9: The Bureau of East Asian and Pacific Affairs should require its
geographic and functional offices to use SharePoint for collaborative tasks and obtain necessary
training for staff. (Action: EAP)

Recommendation 10: The Bureau of East Asian and Pacific Affairs should survey its
administrative requirements and adjust administrative staffing as needed. (Action: EAP)

Recommendation 11: The Bureau of East Asian and Pacific Affairs should develop an
orientation program that introduces new employees to administrative services and the tradecraft
aspects of their jobs, including public affairs. (Action: EAP)

Recommendation 12: The Bureau of East Asian and Pacific Affairs should implement an
Equal Employment Opportunity program. (Action: EAP)
                                        30
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 13: [Redacted] (b) (5)




Recommendation 14: The Bureau of Diplomatic Security, in coordination with the Bureau of
East Asian and Pacific Affairs, should implement a procedure to hold the bureau security officer
accountable for carrying out the position’s responsibilities for the Bureau of East Asian and
Pacific Affairs domestic security program. (Action: DS, in coordination with EAP)

Recommendation 15: [Redacted] (b) (5)



Recommendation 16: [Redacted] (b) (5)



Recommendation 17: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Administration, should implement procedures to maintain and retire official records in
accordance with Department of State standards. (Action: EAP, in coordination with A)

Recommendation 18: The Bureau of East Asian and Pacific Affairs should implement a
formal process for requesting and making system changes to Bureau of East Asian and Pacific
Affairs Web applications that includes documenting each change made. (Action: EAP)

Recommendation 19: The Bureau of East Asian and Pacific Affairs should issue a
management notice on the use of record email and obtain necessary training for personnel on
using the State Messaging and Archive Retrieval Toolset record email component. (Action:
EAP)

Recommendation 20: The Bureau of Information Resource Management, in coordination with
the Bureau of Administration and the Bureau of Public Affairs, should assess the State
Messaging and Archive Retrieval Toolset record email component and, based on user feedback
from Department of State bureaus, improve its user functionality. (Action: IRM, in coordination
with A and PA)

Recommendation 21: The Bureau of East Asian and Pacific Affairs should bring its property
management function into compliance with Department of State requirements. (Action: EAP)




                                       31
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Bureau of East Asian and Pacific Affairs should reorganize
the Office of Mainland Southeast Asia into a Burma unit headed by an FS-01, using position
number D05645300, and desk officers with clearly defined portfolios, with the office’s
remaining country desk officers reporting to the existing FS-01 position.

Informal Recommendation 2: The Bureau of East Asian and Pacific Affairs should give
priority to meeting the domestic staffing needs identified in the bureau staffing plan for any new
positions received in the FY 2014 budget and subsequent budgets until all domestic needs are
met.

Informal Recommendation 3: The Bureau of East Asian and Pacific Affairs should hold
semiannual meetings with the U.S. Agency for International Development, chaired by the
principal deputy assistant secretary, to assess implementation of its strategic plan and report
results to front office officials and office directors.

Informal Recommendation 4: The Bureau of East Asian and Pacific Affairs should create a
unit for strategic planning and foreign assistance and assign sufficient direct-hire staff to the unit.

Informal Recommendation 5: The Bureau of East Asian and Pacific Affairs should designate
the principal deputy assistant secretary to oversee recruitment and staff development.

Informal Recommendation 6: The Bureau of East Asian and Pacific Affairs should review its
current office staffing structure and convert at least one additional deputy office director position
from a Foreign Service position to a Civil Service position.

Informal Recommendation 7: The Bureau of East Asian and Pacific Affairs should prepare an
authoritative document, supplementing the Bureau of East Asian and Pacific Affairs/U.S.
Agency for International Development Joint Regional Strategy, describing its strategy to achieve
its multilateral goals.

Informal Recommendation 8: The Bureau of East Asian and Pacific Affairs should create a
strong regional economic policy unit within the relevant functional office.

Informal Recommendation 9: The Bureau of East Asian and Pacific Affairs should develop
guidelines to hold supervisors accountable for managing office support personnel.

Informal Recommendation 10: The Bureau of East Asian and Pacific Affairs should
implement an annual travel plan process that requires offices to manage their travel funds.

Informal Recommendation 11: The Bureau of East Asian and Pacific Affairs should review
and reissue its written policy regarding logistical support for domestic conferences and
                                                  32
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

representational events and delineate the responsibilities of desk officers and the general services
unit.

Informal Recommendation 12: The Bureau of East Asian and Pacific Affairs should schedule
an orientation program with the Office of Emergency Management as soon as its mission critical
team is in place.

Informal Recommendation 13: The Bureau of East Asian and Pacific Affairs should move
expeditiously to solicit bids for a new knowledge management contract.

Informal Recommendation 14: The Bureau of East Asian and Pacific Affairs should
implement management control techniques to ensure timely completion of purchase card
statement reconciliations.




                                       33
                           SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                                   Name              Arrival Date
Assistant Secretary                                                               Vacant
Principal Deputy Assistant Secretary                                       Joseph Y. Yun                    01/12
                                                                                                  (08/10 as DAS)
Deputy Assistant Secretary                                            James P. Zumwalt                      01/12
Deputy Assistant Secretary                                                      Kin Moy                     06/11
Deputy Assistant Secretary                                                Edgard Kagan                      07/12
Deputy Assistant Secretary                                                Michael Fuchs                     02/13
Deputy Assistant Secretary                                             Susan Stevenson                      10/12
Senior APEC Official                                                        Atul Keshap                     07/12
Senior Advisor for Burma                                              W. Patrick Murphy                     07/12
Office Directors:
   Australia, New Zealand and Pacific
   Island Affairs                                                            Dan Larsen                       09/12
   Chinese and Mongolian Affairs                                         Aubrey Carlson                       08/11
   Economic Policy                                                     Raymond Greene                         07/12
   Executive Director                                                     Karen Stanton                       06/09
   Japanese Affairs                                                       Marc Knapper                        08/11
   Korean Affairs                                                         Robert Rapson                       09/12
Multilateral Affairs Staff 7                                            Christian Castro                      08/11
   Mainland Southeast Asia                                                     Ike Reed                       08/12
   Maritime Southeast Asia                                            Susan Mary Sutton                       08/12
   Public Affairs                                                         Jason Rebholz                       08/12
   Public Diplomacy                                                          Judy Moon                        08/12
Regional and Security Policy Affairs                                         Mark Clark                       07/12
Taiwan Coordination Staff                                             Christopher Beede                       06/12




7
 The Multilateral Affairs Staff and Taiwan Coordination Staff units are treated informally as offices with office
directors by EAP even though neither is established as an office in 1 FAM 130.
                                            34
                                SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
APEC             Asia-Pacific Economic Cooperation

ASEAN            Association of Southeast Asian Nations

DAS              Deputy assistant secretary

Department       Department of State

EAP              Bureau of East Asian and Pacific Affairs

EP               Office of Economic Policy

EX               Executive Office

LMI              Lower Mekong Initiative

MLA              Multilateral Affairs Staff unit

MLS              Mainland Southeast Asia

OIG              Office of Inspector General

PD               Public diplomacy

RSP              Office of Regional and Security Policy Affairs

USAID            U.S. Agency for International Development




                            35
                SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Appendix: Bureau of East Asian and Pacific Affairs
Office Structure
Front Office

The EAP front office is staffed by the Assistant Secretary (vacant at the time of the inspection), a
principal DAS, five other DASes, and a DAS-level APEC senior official. The position of Special
Representative and Policy Coordinator for Burma was established by the Tom Lantos Block
Burmese JADE (Junta’s Anti-Democratic Efforts) Act of 2008. The staff includes six office
support professionals, a special assistant, and three staff assistants.

Executive Office

EX provides management support services and program oversight to EAP domestic offices and
overseas posts. The post management unit coordinates management support for all EAP posts
and is the liaison between posts and Department functional management bureaus. The
assignments unit manages recruitment and assignments of all domestic and overseas Foreign
Service positions. The general services unit carries out EAP’s domestic logistical operations. The
human resources staff serves primarily EAP’s Civil Service employees and eligible family
members. The resource planning management unit manages budget formulation, budget
execution, and overall financial management operations. The regional/domestic systems unit
supports overseas and domestic information technology operations. The office is staffed by 18
Civil Service employees, 12 Foreign Service employees, 3 contractors, 1 student, and 5 Foreign
Service employees on short tours.

Geographic Offices

Office of Australia, New Zealand, and Pacific Island Affairs (EAP/ANP) is responsible for
U.S. relations with Australia, New Zealand, and 12 Pacific Island nations. It is staffed by 10
direct-hire positions: a director, 7 country desk officers, and 2 office support professionals. The
office also has an American Association for the Advancement of Science Fellow and a military
advisor on detail.

Office of Chinese and Mongolian Affairs (EAP/CM) manages U.S. relations with China and
Mongolia. The 24-person staff includes 14 direct-hire positions. It also has the services of 7
nonpermanent positions, 2 contract office support professionals, and an embedded PD officer.
The staff is divided among four units: the bilateral political affairs unit, the external and regional
political affairs unit, the economic unit, and the strategic and economic dialogue unit.

Office of Japanese Affairs (EAP/J) manages U.S. relations with Japan. The staff includes 10
U.S. direct-hire positions: a director, 8 action officers (4 in the political affairs unit and 4 in the
economic affairs unit), and an office support professional. An embedded PD officer, shared with
the Office of Korean Affairs, also works in the office suite.

Office of Korean Affairs (EAP/K) manages U.S. relations with the Republic of Korea and
supports the development and coordination of policy towards the Democratic People’s Republic
of Korea. The office’s staff includes 12 direct-hire positions: a director and de facto deputy
                                        36
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

director, 5 action officers in the Republic of Korea unit, 4 in the Democratic People’s Republic
of Korea unit, and an office support professional. The office also has the services of an action
officer on a Civil Service limited appointment, a when-actually-employed retired Foreign
Service officer, and a contract office support professional. An embedded PD officer, shared with
the Office of Japanese Affairs, also works in the office suite.

Office of Mainland Southeast Asia (EAP/MLS) manages U.S. relations with Burma,
Cambodia, Laos, Thailand, and Vietnam. The office has 7 direct-hire Foreign Service positions,
1 Civil Service office support professional, and 1 contract office support professional. The senior
advisor for Burma occupies an eighth direct-hire position. The office is often augmented by
Foreign Service officers on short tours.

Office of Maritime Southeast Asia (EAP/MTS) manages U.S. relations with Brunei,
Indonesia, Malaysia, the Philippines, Singapore, and Timor-Leste. It has 10 direct-hire positions:
director, 8 desk officers, and an office support professional. The Indonesia and Philippines desks
have 2 officers each: one who covers political and security issues and supervises another who
primarily covers economic issues.

Taiwan Coordination Staff unit (EAP/TC) is responsible for managing the United States’
unofficial relationship with Taiwan. Its staff includes 5 direct-hire positions, including an office
support professional.

Functional Offices

Office of Economic Policy (EAP/EP) is primarily involved in coordinating and leading U.S.
participation in APEC. It also coordinates commercial diplomacy efforts for the bureau. It is
staffed by 5 direct-hire positions. The office also has the services of 2 Jefferson Fellows, a
Franklin Fellow, a Japanese diplomat under the Baker–Kato Exchange program, an intern, and a
contract office support professional. An APEC program director, based in Singapore, also reports
to the office and it funds a part-time position at the U.S. National Center for APEC, a business
group based in Seattle, Washington.

Multilateral Affairs Staff unit (EAP/MLA) was established in August 2011 to support growing
U.S. multilateral engagement and manages U.S. relations with East Asia’s political and security
multilateral institutions. The office supports the U.S. Mission to ASEAN and handles U.S.
subregional engagement under the LMI. The staff includes 6 U.S. direct-hire positions, a Boren
Fellow, a foreign exchange diplomat, and 2 military advisors.

Office of Public Affairs (EAP/P) prepares daily press guidance, briefs the Department
spokesperson on bureau issues for the daily press briefing, and handles media relations. It is
staffed by 6 direct-hire positions, including an office support professional.

Office of Public Diplomacy (EAP/PD) integrates PD into EAP’s work in order to advocate U.S.
policy and represent U.S. society to foreign publics. It is staffed by direct-hire positions,
including 2 country affairs officers embedded in geographic offices, a PD advisor to the U.S.
Pacific Commander based in Hawaii, and an office support professional. It also has the services
of a foreign exchange diplomat, a Pickering Fellow, and two interns.

                                        37
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Office of Regional and Security Policy Affairs (EAP/RSP) coordinates with the Department’s
functional policy bureaus and other agencies to help EAP advance U.S. global, security, and
strategic planning interests. The office is also responsible for strategic planning, budgeting, and
evaluation of EAP’s $700 million dollar foreign assistance budget. The office has 7 direct-hire
positions, a Rangel Fellow, a Jefferson Fellow, a contract office support professional, and 2
interns.




                                       38
                           SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
